                                                     IG-00-029




AUDIT
REPORT                     X-34 TECHNOLOGY DEMONSTRATOR

                                    March 30, 2000




                             OFFICE OF INSPECTOR GENERAL

National Aeronautics and
Space Administration
Additional Copies

To obtain additional copies of this report, contact the Assistant Inspector General for Auditing at
(202) 358-1232, or visit www.hq.nasa.gov/office/oig/hq/issuedaudits.html.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Assistant Inspector General for
Auditing. Ideas and requests can also be mailed to:

       Assistant Inspector General for Auditing
       Code W
       NASA Headquarters
       Washington, DC 20546-0001

NASA Hotline

To report fraud, waste, abuse, or mismanagement contact the NASA Hotline at (800) 424-9183,
(800) 535-8134 (TDD), or at www.hq.nasa.gov/office/oig/hq/hotline.html#form; or write to the
NASA Inspector General, P.O. Box 23089, L’Enfant Plaza Station, Washington, DC 20026. The
identity of each writer and caller can be kept confidential, upon request, to the extent permitted
by law.

Reader Survey

Please complete the reader survey at the end of this report or at
http://www.hq.nasa.gov/office/oig/hq/audits.html.

______________________________________________________________________________________________



Acronyms

FY             Fiscal Year
GAO            General Accounting Office
GPRA           Government Performance and Results Act
ISTP           Integrated Space Transportation Plan
NPD            NASA Policy Directive
NPG            NASA Policy Guidance
OIG            Office of Inspector General
OMB            Office of Management and Budget
RLV            Reusable Launch Vehicle
TRL            Technology Readiness Level
W                                                                  March 30, 2000



TO:           A/Administrator

FROM:         W/Inspector General

SUBJECT:      INFORMATION: Audit of the X-34 Technology Demonstrator
              Report Number IG-00-029


The NASA Office of Inspector General has completed an audit of the X-34 Technology
Demonstrator, one of NASA's faster, better, cheaper projects. The audit was completed prior to
the current X-34 replanning effort, which NASA initiated in early 2000 to improve X-34 risk
mitigation. We reviewed the status of the X-34 Technology Demonstrator Project in meeting
technology requirements for the next-generation Reusable Launch Vehicle (RLV), and, as
necessary, reviewed strategic planning for Space Transportation and the role of the X-34. We
concluded that the Agency needs to improve management of Space Transportation technologies
at the Agency, Enterprise, Center, and program/project levels. Specifically, NASA has not
adequately performed strategic planning for the Space Transportation mission and needs to better
state the next-generation RLV technology requirements. The Office of Aero-Space Technology
has not issued an Enterprise Strategic Plan for the Space Transportation mission. Also, the
Marshall Space Flight Center (Marshall) has not established mission-specific requirements for
each of the 27 currently planned X-34 flights, nor properly documented, with a cost/benefit
analysis, the requirement for these flights or the numerous changes to the proposed flight test
program. Finally, basic program documentation for the X-34 Project Plan and the Future-
X/Pathfinder Program has not been finalized and approved in a timely manner.

Without adequate strategic planning, NASA has less assurance that the technologies resulting
from the X-34 Project will effectively support RLV needs. This deficiency also may extend the
time required to develop needed technology, delaying realization of the launch savings
anticipated from the next-generation RLV. Unless flight test requirements are properly
documented there is no assurance the appropriate number of test flights are planned or that the
test program content is the most cost-effective way to meet project objectives. Also, delays in
preparing program documentation can adversely impact Agency management of technologies
needed to reduce the cost of access to space and delay establishing approved program/project
objectives and concepts to be used to manage these high-priority, costly programs.
                                                                                                                     2

Background

The next-generation RLV concept is an attempt to reduce the cost of access to space. The
original RLV was the Space Shuttle. NASA is now looking towards a second-generation RLV to
reduce launch costs. The X-34 Project is one of the three original “stepping stones” (DC-XA,
X-34, and X-33) in Marshall’s RLV Program and is the first in a series of planned Pathfinder1
class technology demonstrators managed by Marshall’s new Future-X/ Pathfinder Program
Office. Marshall manages the X-34 as part of its responsibility as the Lead Center for Space
Transportation. The NASA Headquarters Office of Aero-Space Technology manages the overall
Agency Space Transportation mission. The estimated cost of the present X-34 Project (including
the $18.6 million cost of the Fastrac engine2 and approximately $2 million in experiments) totals
about $186 million as of November 1999, including the option exercised in January 1999 for 25
additional flights. Project costs may increase further as a result of the current replanning effort.

During our review, NASA continued to work on a Space Transportation Architecture Study,
including the latest phase, the Integrated Space Transportation Plan. Study results should be
incorporated into the Aero-Space Technology Enterprise Strategic Plan. This study is being done
in response to 1996 and 1997 Office of Management and Budget concerns regarding how NASA
planned to reduce launch costs. Enterprise officials told us that during fiscal year 2000, they will
perform extensive Space Transportation systems analyses to continue establishing the technology
requirements for the next-generation RLV.

Recommendations

We recommended that the Agency correct deficiencies in the Agency Strategic Plan and issue an
Enterprise Strategic Plan and Lead Center Implementation Plan addressing space transportation
that defines technology requirements, establishes an implementing strategy including technology
metrics, and implements an appropriate cost/benefit analysis process. We recommended that
Marshall revalidate X-34 flight test requirements to include the number and type of flights and
the number of engines, delete any unneeded flights or engines, cancel plans for the expanded
flight test program, and properly document X-34 management decisions. We also recommended
that NASA place added emphasis on (1) compliance with Agency program documentation
requirements to include promptly completing X-34 and Future-X/Pathfinder documentation and
(2) on establishment of internal control procedures to ensure the timely preparation of future
program documentation.




1
  Pathfinder class technology demonstrators are technology-focused flight vehicle projects within the Future-
X/Pathfinder Program and generally cost less than $100 million each.
2
  Marshall is developing the Fastrac engine in-house, with contractor support, using currently available technology.
Initiated in 1996, separately from the X-34 Project, Fastrac is to reduce launch costs by providing a low-cost booster
for small payloads. Fastrac will be the main propulsion for the X-34 vehicle.
                                                                                                3

Management's Response and OIG Evaluation

Management concurred with all 16 recommendations, agreeing to implement recommended
actions, which should significantly improve the overall effectiveness of Agency management of
Space Transportation programs and projects. The actions should also help ensure that Agency
and Enterprise Strategic Plans comply with Agency directives and more effectively address
required technologies, that flight programs cost-effectively meet X-34 needs, and that basic
program documentation is promptly finalized and approved. A summary of the status of all the
recommendations is in the Executive Summary of the report.


[Original signed by]

Roberta L. Gross

Enclosure
 Final Report on the Audit of the X-34 Technology Demonstrator
                FINAL REPORT
AUDIT OF THE X-34 TECHNOLOGY DEMONSTRATOR
W                                                                    March 30, 2000


TO:           R/Associate Administrator for Aero-Space Technology
              DA01/Director, Marshall Space Flight Center

FROM:         W/Assistant Inspector General for Auditing

SUBJECT:      Final Report on the Audit of X-34 Technology Demonstrator
              Assignment Number A-HA-98-050
              Report Number IG-00-029

The subject final report is provided for your information and use. Please refer to the Executive
Summary for the overall audit results. Our evaluation of your response is incorporated into the
body of the report. The corrective actions taken or planned for recommendations 1 through 7, 9,
10, 11, 13, 14, and 15 were responsive, but the recommendations will remain open for reporting
purposes until corrective action is completed. Please notify us when corrective action has been
completed on these recommendations, including the extent of testing performed to ensure
corrective actions are effective. The corrective actions completed on recommendations 8, 12,
and 16 were responsive, and those recommendations are considered closed for reporting
purposes.

If you have questions concerning the report, please contact Ms. Karen VanSant, Audit Program
Director, Aero-Space Technology Audits, at (256) 544-1149, or Mr. Jim Linville,
Auditor-in-Charge, at (256) 544-0971. We appreciate the courtesies extended to the audit staff.
The final report distribution is in Appendix J.

[Original signed by]

Russell A. Rau

Enclosure
                                              2
cc:
B/Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
G/General Counsel
JM/Director, Management Assessment Division
                                             3


bcc:
AIGA, IG, Reading Chrons
AE/Audit Liaison Representative
HK/Audit Liaison Representative
RS/Audit Liaison Representative
Marshall/RS40/Audit Liaison Representative
Contents                                __________________

Executive Summary, i

Introduction, 1

Findings and Recommendations, 3

     Finding A. Strategic Planning for Space Transportation, 3

     Finding B. X-34 Project Flight Test Requirements, 12

     Finding C. Documentation for Space Transportation Programs/Projects, 18

Appendix A - Objectives, Scope, and Methodology, 24

Appendix B - Background, 27

Appendix C - Federal and Agency Requirements, 29

Appendix D - Congressional, OMB, and GAO Concerns, 31

Appendix E - Metrics for Acquiring Needed Technologies, 33

Appendix F - Agency Strategic and Performance Plans, 35

Appendix G - Space Transportation Architecture Study, 37

Appendix H - Program Documentation Requirements, 38

Appendix I – Management’s Response, 40

Appendix J - Report Distribution, 51
                            NASA Office of Inspector General



IG-00-029                                                                       March 30, 2000
 A-HA-98-050

                              X-34 Technology Demonstrator

                                      Executive Summary

Background. The next-generation Reusable Launch Vehicle (RLV) concept is an attempt
to reduce the cost of access to space. The original RLV was the Space Shuttle. NASA is
now looking towards a second-generation RLV to reduce launch costs. The X-34 Project
is one of the three original “stepping stones” (DC-XA, X-34, and X-33) in Marshall
Space Flight Center’s (Marshall’s) RLV Program and is the first in a series of planned
Pathfinder3 class technology demonstrators managed by Marshall’s new Future-X/
Pathfinder Program Office. Marshall manages the X-34 as part of its responsibility as the
Lead Center for Space Transportation. The NASA Headquarters Office of Aero-Space
Technology manages the overall Agency Space Transportation mission. The estimated
cost of the present X-34 Project (including the $18.6 million cost of the Fastrac engine4
and approximately $2 million in experiments) totals about $186 million as of November
1999, including the option exercised in January 1999 for 25 additional flights. Marshall
is contemplating additional experiments and vehicle tests.

Objectives. The overall objective was to assess the status of the X-34 Technology
Demonstrator Project, through fiscal year (FY) 1999, in meeting technology requirements
for the next-generation RLV. To evaluate NASA’s planned use of X-34 technologies, it
was necessary that our review also address strategic planning for Space Transportation
and the role the X-34 was expected to play in meeting Agency Space Transportation
technology requirements. Appendix A contains details on the objectives, scope, and
methodology used for this audit.

Results of Audit. Management of Space Transportation technologies needs
improvement at the Agency, Enterprise, Center, and program/project levels as illustrated
below:

        Strategic Planning. NASA has not adequately performed strategic planning for
        the Space Transportation mission. Specifically, improvements are needed at all

3
  Pathfinder class technology demonstrators are technology-focused flight vehicle projects within the
Future-X/Pathfinder Program and generally cost less than $100 million each.
4
  Marshall is developing the Fastrac engine in-house, with contractor support, using currently available
technology. Initiated in 1996, separately from the X-34 Project, Fastrac is to reduce launch costs by
providing a low-cost booster for small payloads. Fastrac will be the main propulsion for the X-34 vehicle.
       levels in preparing effective strategic plans and in procedures for managing those
       technologies (including the X-34) needed to develop the next-generation RLV and
       to reduce launch costs. Strategic planning deficiencies may result in the Agency
       not receiving technology benefits from the X-34 Project and may extend the time
       required to develop needed technology, delaying realization of launch savings
       anticipated from the next-generation RLV (see Finding A).

       Flight Test Requirements. Marshall has not established mission-specific
       requirements for each of the 27 currently planned X-34 flights, including the
       option exercised prematurely by Marshall for 25 additional flights. Marshall has
       not properly documented, with a cost/benefit analysis, the requirement for these
       flights or the numerous changes to the proposed flight test program. Similarly,
       Marshall also has not justified the need for an additional 7-10 flights proposed as
       an expanded flight test program. In the absence of necessary documentation, there
       is no assurance the appropriate number of test flights are planned or that the test
       program content is the most cost-effective way to meet project objectives.
       Canceling the additional flights will save $7 to10 million (see Finding B).

       Program Documentation. Basic program documentation (to include the X-34
       Project Plan and the Future-X/Pathfinder Program Commitment Agreement and
       Program Plan), which is required prior to program implementation, had not been
       finalized and approved, although the Project and Program were initiated in 1995
       and 1997, respectively. Drafts of the program documentation lacked necessary
       information to effectively implement Agency strategic plans. This delayed
       establishing approved program/project objectives and concepts to be used to
       manage these high-priority, costly programs and delayed formally defining the
       roles and responsibilities of NASA officials. Delays in preparing program
       documentation can adversely impact Agency management of technologies needed
       to reduce the cost of access to space, a key NASA goal (see Finding C).

Recommendations. NASA management should:

   •   Correct deficiencies in the Agency Strategic Plan and issue an Enterprise Strategic
       Plan and Lead Center Implementation Plan addressing space transportation that
       defines technology requirements, establishes an implementing strategy including
       technology metrics, and implements an appropriate cost/benefit analysis process.

   •   Revalidate X-34 flight test requirements to include the number and type of flights
       and the number of engines. Delete any unneeded flights or engines, cancel plans
       for the expanded flight test program, and properly document X-34 management
       decisions.

   •   Place added emphasis (1) on compliance with Agency program documentation
       requirements to include promptly completing X-34 and Future-X/ Pathfinder

                                            ii
       documentation, and (2) on establishment of internal control procedures to ensure
       timely preparation of future program documentation.

Management's Response. Management concurred with all 16 recommendations,
agreeing to implement recommended actions, which should significantly improve the
overall effectiveness of Agency management of Space Transportation programs and
projects. The actions should help ensure that Agency and Enterprise Strategic Plans
comply with Agency directives and more effectively address required technologies, that
flight programs cost-effectively meet X-34 needs, and that basic program documentation
is promptly finalized and approved.

Evaluation of Management's Response. Management actions taken and planned are
responsive to all of the recommendations.




                                           iii
Introduction

The X-34 Project is part of the Future-X/Pathfinder Program within NASA’s Space
Transportation mission. The Headquarters Aero-Space Technology Enterprise and Marshall share
responsibility for preparing strategic plans for the Space Transportation mission. The strategic
planning process establishes the long-term direction for this mission and includes a vision of the
future, goals, objectives, and implementing strategies.5 During our review, NASA continued to
work on a Space Transportation Architecture Study, including the latest phase, the Integrated
Space Transportation Plan. Study results should be incorporated into the Aero-Space
Technology Enterprise Strategic Plan when completed. This study is being done in response to
1996 and 1997 Office of Management and Budget (OMB) concerns regarding how NASA
planned to reduce launch costs. Enterprise officials told us that during FY 2000 they will perform
extensive Space Transportation systems analyses to continue establishing the technology
requirements for the next-generation RLV. Additional background information is in Appendix
B.

In 1995, Marshall selected and awarded a cooperative agreement6 to the team of Orbital Sciences
Corporation (Orbital) and Rockwell International, Inc., to design, build, and fly the X-34
unmanned test vehicle. The proposed vehicle was to be an orbital spacecraft that could be put
into commercial production upon completion of the demonstration program. However, in early
1996 the industry partners withdrew from the partnership due to a number of factors including
changes in the projected business profitability. Shortly thereafter, on March 27, 1996, Marshall
issued NASA Research Announcement 8-147 and subsequently awarded Orbital a firm-fixed-
price contract for a smaller, suborbital X-34 vehicle that is similar in some respects to Orbital’s
Pegasus expendable launch vehicle, but incorporates new technologies. The basic contract
provided for a test article (A1), one flight vehicle (A2), and only two flights at a total cost of
about $50 million, excluding the cost of the Fastrac engine.8 However, in January 1998, NASA
exercised options for a Characterization and Validation effort9 and a third flight test vehicle
(A3).10 Subsequently, in January 1999, Marshall exercised an option for an additional flight
program (25 more flights).




5
  NASA’s long-term goal to provide safe and affordable space travel to enable research and human expansion relies
on the development of a reusable launch vehicle and/or significant improvements to the Space Shuttle.
6
  Under the terms of the cooperative agreement partnership, NASA and the industry partners would each provide half
(50/50) of the $150 million estimated cost.
7
  The NASA Research Announcement solicited proposals for applied research that offered new and innovative
solutions to enhance key technologies applicable to future RLV’s. The proposals could address a demonstrator
vehicle, technology test bed, or RLV technology flight experiments.
8
  Marshall developed the Fastrac engine in-house for small payload launchers.
9
  The Characterization and Validation Effort is intended to provide risk mitigation to the X-34 Project. It provides
for additional hardware, including a second powered vehicle, permitting early validation of critical X-34 systems and
demonstration of vehicle performance and maturity.
10
   The first X-34 vehicle, A1, was originally a test article and was not scheduled to fly. However, modified as the
A1A vehicle, it will be used for ground tests, including tow tests, and will perform the unpowered portion of the
X-34 flight tests using the wing and other components “borrowed” from the A3 vehicle.
The X-34 Project will demonstrate technologies necessary for a next-generation RLV. The
present X-34 vehicle is a suborbital, rocket-powered, Mach-8-capable flight demonstrator testbed
intended to enhance U.S. commercial space launch competitiveness through the development and
demonstration of key technologies applicable to future RLV’s. The X-34 will demonstrate
flexible integration capability and operability to include a high-flight rate,11 autonomous flight
operations, safe abort capability, landing in cross winds up to 20 knots, flights through rain and
fog, and a recurring flight cost of about $500,000.12

Several aspects of the X-34 have undergone change since the X-34 Project (formerly “Program”)
was initiated in 1995. These continual changes have had a significant effect on the X-34
Project’s cost, schedule, and potential results. For example, although the X-34 first flight (current
project) was to have occurred on November 21, 1998, the first flight is now planned for March
2000 or later. The proposed X-34 flight test program was still undergoing change (flight
trajectories, etc.) as of November 1999. It is anticipated there will be still more changes in the
Project.




11
  The flight rate is equivalent to 25 flights per year and 2 flights within 24 hours.
12
  The $500,000 does not include NASA in-house costs, range costs, or certain contractor costs. Actual cost is
estimated to be more than $1 million per flight.

                                                         2
Findings and Recommendations                                       _______________

Finding A. Strategic Planning for Space Transportation

NASA has not adequately performed strategic planning for the Agency’s Space Transportation
mission, which includes the X-34 Project. Specifically, the Office of Aero-Space Technology
and Marshall have not: (1) defined technology requirements qualitatively and quantitatively for
the next-generation RLV; (2) established appropriate implementing strategies to include metrics,
performance indicators, and an evaluation process for measuring and reporting technology
progress; (3) routinely performed cost/benefit analyses of Space Transportation technology
initiatives and alternatives; or (4) prepared essential strategic planning documents. Neither the
Office of Aero-Space Technology nor Marshall adequately followed Agency requirements
regarding strategic planning. Strategic planning deficiencies may result in the Agency receiving
technology from the X-34 Project that will not be used and may extend the time required to
develop needed technology and/or delay realization of the launch savings anticipated from the
next-generation RLV.

Federal and Agency Requirements

Government Performance and Results Act. The Government Performance and Results Act
(GPRA), passed by Congress in 1993, requires Federal agencies including NASA to develop an
agency 5-Year Strategic Plan and update it at least every 3 years and to prepare an annual agency
Performance Plan and submit an agency Performance Report. NASA prepared the Agency’s first
GPRA Performance Plan in September 1998 (for FY 1999). NASA’s first annual GPRA
Performance Report (for FY 1999) is due to the President and Congress on March 31, 2000. A
key GPRA requirement is that performance plans include appropriate performance targets that
are measurable for the fiscal year reported. Details on GPRA requirements are in Appendix C.

NASA Strategic Management Handbook. NASA’s Strategic Management Handbook (NASA
Procedures and Guidelines (NPG) 1000.2), dated October 1996, documents the Agency’s
policies, processes, guidelines, and responsibilities for strategic management as required by
GPRA. The Handbook requires that all Agency strategic plans, the NASA Strategic Plan,
Enterprise Strategic Plans, and lower level strategic planning documents include specific
elements to ensure consistency and meet GPRA requirements. Agency strategic plans articulate
what NASA does, who its customers are, NASA’s goals, and how it will achieve them. Agency
strategic plans should have mission-critical but achievable goals, specific and measurable
objectives, implementing strategies describing how the goals and objectives will be achieved,
performance targets and appropriate metrics for measuring progress. The Handbook states that
Enterprise strategic plans must be reviewed annually and updated as necessary. Lower level
strategic planning documents such as Center Implementation Plans, supported by
program/project plans and Center of Excellence or Lead Center Plans, should prescribe
milestones, resource requirements, schedules, and performance criteria at both the program and
task level. Details on the NASA Strategic Management Handbook are in Appendix C.



                                                3
NASA Strategic Planning

At the Agency, Enterprise, and Center levels, strategic planning documents for the Agency’s
Space Transportation mission did not adequately comply with Agency requirements, and some
key Enterprise and Lead Center plans had not been prepared. There has been continuing
congressional, OMB, and General Accounting Office concerns regarding the adequacy of
NASA’s strategic plans for Space Transportation. (See Appendix D for additional details on
these concerns.) The NASA Strategic Management Handbook states that “NASA must be able
to monitor its success in achieving each objective.” Space Transportation technology
management extensively involves the development of hardware (engines, composite structures,
composite/cryogenic fuel tanks, thermal protection systems, avionics, etc.) for new
boosters/launchers. NASA has been performing hardware research and development for 4
decades. Therefore, the Aero-Space Technology Enterprise and Marshall should have
established more definitive strategic plans that included specific data on the technologies
required to reduce launch costs and appropriate metrics to measure technology progress. The
NASA Technology Plan, dated December 1998, did include some broad technology requirements
and technology “challenges” for the Space Transportation mission. However, they were not
included in the strategic plans.

The handbook establishes requirements for strategic planning documents and requires
roadmaps,13 specific objectives, and implementing strategies to include performance targets as
well as metrics and an evaluation process to assess progress towards meeting objectives.
However, strategic planning documents for Space Transportation do not include specific
information on the technology requirements, including the technology “gap”,14 necessary to
significantly reduce launch costs or appropriate metrics to measure technology progress.
Appropriate metrics and an evaluation process for measuring and reporting annual progress are
not established and reflected in strategic plans for Space Transportation. It is essential that
appropriate technology metrics be established for each RLV core technology15 requirement.
Although existing planning documents frequently use the term “technology,” none used the
standard NASA metric, “Technology Readiness Level,”16 to identify current technology status, to
define the needed technology requirement, or to report technology progress. (Additional
information on metrics is in
Appendix E). NASA’s Space Science and Earth Science Enterprises used the term Technology
Readiness Level (TRL) in their Technology Strategy documents for 1998 or 1999. Although the
Office of Aero-Space Technology did not use TRL's in strategic planning documents for Space
Transportation, it did use TRL's as a metric in managing aviation technologies in the Level II
Plan for the Advanced Air Transportation Technologies Project, dated May 1999.



13
   The Handbook requires that NASA and Enterprise strategic plans include a one page “Strategic Roadmap.”
Roadmaps are to show how NASA plans to attain goals, objectives, and milestones.
14
   Difference between current technology capability and the more advanced technology requirement.
15
   RLV core technologies include avionics, composite structures, composite/cryogenic tanks, thermal protection
systems, propulsion, and aircraft-like operations.
16
   Per the NASA Technology Plan, dated December 1998, the metric Technology Readiness Level specifies the
maturity of a technology from 1 (not mature) through 9 (mature).

                                                         4
Deficiencies in the Agency, Enterprise, and Center strategic planning documents included the
following:

•    Objectives in the 1998 and 1999 strategic plans generally meet the criteria of the handbook,
     but were not measurable due to the lack of appropriate implementing strategies.

•    Implementing strategies did not:
     • state how the goals and objectives will be achieved,
     • provide an investment strategy that addressed resource requirements, and
     • provide metrics that identify performance indicators or the evaluation process to be used
        to measure progress.

As a result of the deficiencies, NASA is unable to adequately monitor its success overall and the
contribution of the X-34 Project was not clear.

Agency Level. NASA Strategic Plans for FYs 1996, 1998,17 and 1999,18 and the NASA FY
1999 Performance Plan did not adequately define the role of the X-34 in meeting Space
Transportation technology requirements for the next-generation RLV. The Plans, prepared by the
Office of Aero-Space Technology, do not state how, when, or if the technologies addressed by
the X-34 Project will be used to satisfy Space Transportation technology needs. The Agency’s
FY’s 1998 and 1999 strategic plans for Space Transportation did not provide appropriate
implementing strategies stating how goals and objectives would be achieved and did not include
appropriate implementing strategies with performance indicators and an evaluation process to
measure progress and to address resource requirements. The plans state goals, objectives, and
related activities, but these related activities (that is, the X-33 and X-34) also are not readily
measurable. The FY 1999 NASA Performance Plan contains goals, objectives, and performance
targets. However, the performance targets were not in quantified, measurable metrics, and the
specific contribution of the X-34 and other Space Transportation programs/ projects to goals and
objectives was not clear. Deficiencies in the Agency strategic plans adversely affected the
strategic planning process at all levels. Additional details on specific weaknesses in the Space
Transportation (access to space) portion of the Agency’s FY’s 1998 and 1999 Strategic Plans and
FY 1999 Performance Plan are provided in Appendix F.19

Enterprise Level. The Office of Aero-Space Technology did not issue an Enterprise Strategic
Plan addressing the Space Transportation mission pursuant to the NASA Strategic Management
Handbook. The Enterprise was assigned responsibility for the Space Transportation mission in
February 1997, but had not issued an Enterprise strategic plan on this high-priority mission as of
November 1999, more than 2 years later. The Enterprise last issued a Strategic Plan in April
1995. The Office of Space Access and Technology, which was previously responsible for



17
   There was no 1997 plan.
18
   The FY 1999 Plan is the FY 1998 Plan with 1999 Interim Adjustments.
19
   The NASA Strategic Management Handbook, dated October 1996, implements GPRA; we used the handbook as
audit criteria to evaluate the NASA FY 1998 and FY 1999 Strategic Plans.

                                                   5
NASA’s Space Transportation mission from 1994 to 1997, also did not issue an Enterprise
strategic plan on Space Transportation. As a result, there has been no Enterprise strategic plan
on the critical Space Transportation mission in at least 5 years.

Enterprise officials acknowledged they had not issued a specific Enterprise Strategic Plan since
1995, but stated three documents issued in 1997 and 1998, cumulatively, would satisfy
requirements for a Plan.20 Our review of the three strategic planning documents issued by the
Aero-Space Technology Enterprise showed that together, they would not adequately serve as an
Enterprise Strategic Plan. The NASA handbook states that Enterprise Strategic Plans must
elaborate on their respective missions and goals, as presented in NASA’s Strategic Plan, by
providing more detailed objectives, implementing strategies, and a description of the key
elements, programs, and/or processes. Documents the Enterprise issued did not adequately meet
these criteria.

For example, Enterprise documents should have provided specifics and details for achieving the
Agency objective to “Complete research and development (during the period 1998 thru 2002) to
enable U.S. industry to launch to Low Earth Orbit at $1,000 /lb.” as stated in the NASA 1998
Strategic Plan. Enterprise plans also should have established an implementing strategy for
achieving this objective to include appropriate metrics (performance indicators) and should have
defined an evaluation process for monitoring and reporting research and development progress
on needed technologies over the 5-year period. Enterprise documents did neither. Details not
provided by the Enterprise include specifics on the required technologies, including current status
and the technology “gap” of each technology being pursued by research and development; and
the metric (such as TRL's) for monitoring technology progress as well as cost/benefit data -- the
benefit to be provided by each of the Enterprise’s initiatives. Enterprise documents did not make
clear the contribution (benefit) of the X-34 toward this objective.

Center Level. Consistent with the Agency’s decentralization of program/project management,
the Associate Administrator for Aeronautics (now Aero-Space Technology) and the Associate
Administrator for Space Flight jointly designated Marshall the Lead Center for Space
Transportation in February 1997. The Associate Administrators directed that Marshall “will
develop a long-range technology plan that fully utilizes the capabilities of other NASA Centers,
other Government agencies, academia, and industry. The plan will be developed consistent with
Headquarters program and investment strategies and guidance.” However, as of November
1999, Marshall, as the Lead Center, had not prepared the required implementation plan.

Although Enterprise officials told us we would find the details and specifics missing from the
Agency and Enterprise strategic planning documents at the Center level, existing Center-level
documents prepared by Marshall including the Center Implementation Plans and Annual Reports
for FY’s 1996 through FY 1999 also lacked such details. Necessary detail implementing the
NASA and Enterprise Strategic Plans, such as approximate qualitative and quantitative
technology requirements, technology “gaps” that the program/project would address, or
appropriate implementing strategies including performance indicators, metrics, and an evaluation
20
  The three Enterprise strategic planning documents reviewed were “Three Pillars and 10 Goals,” “Roadmaps to the
Future,” and “Progress Report for 1997-1998.”

                                                       6
process for measuring and reporting technology progress were missing from the Future-
X/Pathfinder Program Plan (draft) and the X-34 Project Plan (draft). (See Finding C for details.)

Cost/Benefit Analyses

The Aero-Space Technology Enterprise strategic planning process for Space Transportation does
not include appropriate use of cost/benefit analyses to support management decisions, help
prioritize technology requirements, and ensure resources are utilized in the most cost-effective
manner. The NASA handbook assigns the Enterprise Associate Administrator responsibility to
develop an Enterprise Strategy, to include a Long-Term Investment Strategy. Similarly, NPG
7120.5A, “NASA Program and Project Management Processes and Requirements,” dated April
3, 1998, tasks Enterprise Associate Administrators to formulate programs and allocate resources.
The NPG requires that a system analysis and life-cycle costing analysis be performed during
program formulation to produce feasible concepts and explore a wide range of implementation
options. The value of a Space Transportation technology roadmap, depicting how NASA will
attain Space Transportation goals, depends heavily on the extent to which it effectively links the
cost of a given initiative or alternative to the technology benefit expected to be received.
However, the Enterprise’s strategic planning process for Space Transportation does not include
an effective process for routinely identifying, measuring, and documenting the technology benefit
to be provided by each initiative. The Enterprise should use cost/benefit analyses to prioritize
technology requirements and ensure cost-effective use of resources in attaining technology
benefits, to produce feasible concepts and explore options, and to develop an appropriate
investment strategy for Space Transportation.

Enterprise officials acknowledged they have not routinely used cost/benefit analyses to document
support for Space Transportation technology management decisions. Instead, they used a
“facilitated expert judgment”21 process to support management decisions. However, Enterprise
officials did not provide documentation on that process or on specific process results for Space
Transportation, stating the process was largely undocumented. While actions such as the
“facilitated expert judgment” process may contribute to management of Space Transportation
technologies, the basis for management decisions should be properly documented. Further, the
evaluation process inherent in a cost/benefit analysis can contribute significantly to the validity of
decisions for prioritizing technology requirements. However, the existing, undocumented
process does not adequately implement the requirements of NPG 7120.5A. As a result, Strategic
planning documents generally do not identify the specific technology contribution, in quantitative
or qualitative terms, to be provided by elements of the RLV Program such as the X-34
Technology Demonstrator. Enterprise plans for Space Transportation would be improved by
using an appropriate, documented cost/benefit analysis to prioritize technology needs and to help
ensure that scarce Agency resources are utilized in the most effective manner. The lack of an
effective, documented cost/benefit analysis process further undermines validity of the Agency
strategic planning process for Space Transportation.



21
   The process was defined by Office of Aero-Space Technology officials as a roundtable dialogue at meetings
attended by NASA, industry, and other interested parties.

                                                        7
The Enterprise, with Marshall assistance, drafted a “Space Transportation Investment Strategy”
document, dated September 1997, in response to OMB direction that NASA submit a launch
plan. This document acknowledged the lack of an appropriate investment strategy for Space
Transportation, stating “Up to now, the agency has not had a systematic approach to defining,
prioritizing and implementing technology development that addresses both (Shuttle and new
RLV) needs as well as other future technology requirements.” However, this strategy document
generally addressed Space Transportation alternatives only at a high level (that is, Shuttle
upgrades as opposed to new RLV technology or other options) and unfortunately did not result in
the Enterprise establishing an appropriate cost/benefit analysis process at the technology level. In
September 1999, Marshall officials stated NASA was considering a proposed process for
determining (1) the “goodness” of a technology product produced within each Enterprise and (2)
the extent of progress toward strategic goals. The proposed process, which includes the use of
Technology Readiness Levels, may eventually be utilized by the Enterprise and Marshall to
provide improved management of space transportation resources.

Contributing Factors to Strategic Planning Problems

Waiting on Industry. NASA’s effort to purchase commercially available space goods and
services from the private sector, in compliance with the National Space Transportation Policy,
has contributed to the lack of identified technology requirements. Specifically, because NASA
anticipates being a customer and buying space launch services from the private sector, NASA
officials deferred to the private sector to define specifications and requirements, including
technology requirements, for the next-generation RLV. As a result, NASA’s implementation of
the National Space Transportation Policy focused on private industry requirements and did not
properly recognize Agency requirements for access to space.22

We believe NASA’s implementation of the Space Transportation Policy23 guidance in 1994
placed too much dependence on industry to identify requirements and insufficient recognition of
the Agency’s needs to carry out assigned missions in science and human exploration of space.
The Policy tasked NASA to “… be the lead agency for technology development and
demonstration for next generation reusable space transportation systems.…” As the Lead
Government Agency responsible for civil Space Transportation, NASA should, with industry
input, take the lead in defining technology requirements for the next-generation RLV,
recognizing both industry and NASA requirements.

Consensus. NASA officials told us a major stumbling block to Agency preparation of an
acceptable strategic plan for Space Transportation in recent years has been a lack of consensus
within the Agency and between NASA and private industry on the future of Space Transportation
and the specific solution to high launch costs. The officials stated some elements of the Agency
were not receptive to anything less than a Shuttle-derived, next-generation RLV. Marshall
officials told us that the Space Transportation Architecture Study became bogged down in the

22
   Our prior audit of the X-33 Advanced Technology Demonstrator (OIG Audit Report IG-99-001, "X-33 Funding
Issues," dated November 3, 1998) determined NASA’s failure to properly recognize Agency requirements as bona
fide needs was a contributing factor to significant financial management deficiencies on the X-33 program.
23
   President Clinton issued the National Space Transportation Policy on August 5, 1994.

                                                      8
second quarter of calendar year 1999, during our review, due to a lack of consensus within
NASA regarding the future plans for Space Transportation. One difficulty was reaching
agreement on the extent to which Agency launch requirements, as opposed to industry
requirements should be recognized. As a result, OMB officials, who had been asking NASA for
an appropriate Space Transportation strategic plan (launch plan) for more than 2 years, advised
NASA that unless the Agency submitted an acceptable plan for Space Transportation, the $1.2
billion funding “wedge”24 for FY’s 2001 through 2004 would not be included in the Agency’s
Space Transportation budget. The possible loss of more than $1 billion in Space Transportation
funding, if NASA did not provide OMB an acceptable strategic plan, precipitated additional
effort by NASA and Marshall to initiate improvements in Space Transportation strategic plans.
The results of the ongoing Space Transportation Architecture Study (and the current study phase,
the Integrated Space Transportation Plan) may provide more definitive technology requirements
and “roadmaps” for NASA’s Space Transportation requirements. (Additional information on the
ongoing Space Transportation Architecture Study is in Appendix G).

Recommendations, Management's Response, and Evaluation of Response

The Associate Administrator for Aero-Space Technology, in coordination with the
Marshall Center Director, should:

1.         Improve Agency strategic planning documents to ensure they comply with
           requirements of the NASA Strategic Management Handbook and GPRA. At a
           minimum, specify goals that support mission statements; results oriented,
           measurable objectives; and implementing strategies that articulate how the goals
           and objectives will be achieved, including metrics to be used as performance
           indicators and a process for evaluating results.

Management’s Response. Concur. Agency strategic planning for space transportation has been
significantly enhanced with the development of the Integrated Space Transportation Plan (ISTP).
The specific goals, roadmaps, and implementing strategies that were defined through the ISTP
development process will be reflected, as appropriate, in future versions of agency
documentation. Specific performance metrics that contribute to the objective and provide a
meaningful measure of progress toward meeting the safety, reliability, and affordability
objectives will be identified and included in the annual NASA Performance Plan. These changes
will be reflected in the next Agency plan, scheduled for release in the fall of 2000. The complete
text of the comments is in Appendix I.

Evaluation of Management’s Response. The actions taken and planned by management are
responsive to the recommendation. The recommendation is resolved, but will remain
undispositioned and open until agreed-to corrective actions are completed.

2.         Prepare an Enterprise strategic plan, in compliance with the NASA Strategic
           Management Handbook and GPRA, and establish procedures to review the plan

24
     Separate budget line item for Future Space Launch Development.

                                                         9
       annually, and update it as required. The plan should identify technology
       requirements, as well as an implementing strategy, to include metrics and evaluation
       processes to measure technology progress.

Management’s Response. Concur. The Enterprise is developing a detailed strategic plan that
will include the space transportation goal, objectives, performance metrics, and implementing
strategies. The Enterprise plan will be released in conjunction with the Agency plan in the fall of
2000. The plan will be reviewed on an annual basis and updated as required (see Appendix I).

Evaluation of Management’s Response. The actions taken and planned by management are
responsive to the recommendation. The recommendation is resolved but will remain
undispositioned and open until agreed-to corrective actions are completed.

3.     Implement an appropriate cost/benefit analysis process to support and document
       the rationale for management decisions on Space Transportation, and develop an
       investment strategy to implement Space Transportation strategic plans and to help
       ensure effective use of resources.

Management’s Response. Concur. The ISTP development process implemented a rigorous and
thorough method of defining and understanding requirements and of evaluating and
recommending investment options. Through this process, NASA consolidated technology
requirements from industry, as well as the Agency, and prioritized them based on the importance
of improving safety, followed by cost and applicability to multiple industry concepts. The ISTP
process implemented an analytical hierarchy methodology of evaluating technology investment
options that was based on architecture-level economic metrics. Each technology was subjected
to a cost/benefit analysis. Each technology was also ranked based on potential payoff to cost,
safety, and technical risk. The results of the integration and analysis process served as the
foundation of a series of roadmaps that illustrate the development needed to advance the TRL's
of key technologies (see Appendix I).

Evaluation of Management’s Response. The actions taken and planned by management are
responsive to the recommendation. Subsequent to receipt of management's comments, we
requested and management agreed to provide us an ISTP update status briefing and copies of
additional pertinent documentation. The recommendation is resolved but will remain
undispositioned and open until agreed-to corrective actions are completed.

4.     Define technology requirements for the next-generation RLV using metrics that will
       facilitate measuring and reporting incremental progress. Consideration should be
       given to using Technology Readiness Levels as one Space Transportation metric.

Management’s Response. Concur. As stated in the response to Recommendation 3, NASA has,
through the ISTP development process, performed a comprehensive and detailed analysis of RLV
concept requirements and has established a bottoms-up development approach as demonstrated
by its integrated roadmap structure. Each roadmap illustrates a path to develop the necessary
technology from its existing TRL to at least a flight demonstration TRL (see Appendix I).

                                                10
Evaluation of Management’s Response. The actions taken and planned by management are
responsive to the recommendation. As stated earlier, management agreed to provide us an ISTP
update status briefing and copies of additional pertinent documentation. The recommendation is
resolved but will remain undispositioned and open until agreed-to corrective actions are
completed.

5.     The Marshall Center Director should issue a Lead Center Implementation Plan on
       Space Transportation. The plan should identify requirements, objectives, and
       implementing strategies that are specific and measurable and should identify
       metrics that include performance targets and the evaluation process for measuring
       annual performance.

Management’s Response. Concur. The Marshall Space Transportation Directorate has created
an integrated strategic plan to implement its charter and accomplish its programmatic
assignments. The “Space Transportation Directorate 2010: Corporate Strategy” Volume I, March
2000, is a 10-year, integrated plan designed to focus the Directorate on the critical activities as
Marshall and its partners proceed to accomplish NASA’s goals of enabling future safe, reliable,
and affordable access to space. The plan is intended to provide guidance and direction for the
decisions and actions of the Space Transportation Team. To ensure that the Space Transportation
Directorate successfully accomplishes this strategy, specific action plans will be developed for
each of the core strategies. Each action plan will include a statement of measurable and
qualitative outcomes, significant partners, key decisions and actions, responsible personnel, and a
timetable for completion. The action plans will be focused on the next 3 to 5 years and will be
updated at least annually. Upon completion in June 2000, these plans will be included as
Volume II of the Corporate Strategy (see Appendix I).

Evaluation of Management’s Response. The actions taken and planned by management are
responsive to the recommendation. The recommendation is resolved but will remain
undispositioned and open until agreed-to corrective actions are completed.




                                                11
Finding B. X-34 Project Flight Test Requirements

Marshall had neither established mission-specific requirements for each X-34 flight test nor
properly documented, with a cost /benefit analysis, a requirement for the 27 flights currently on
contract. Additionally, Marshall has not properly documented the rationale for substantial
changes, including the proposed addition of 7 to 10 more flights, to the X-34 flight test program.
This condition exists because Marshall and the Office of Aero-Space Technology established the
number of X-34 flights without performing a cost/benefit analysis and have not revalidated flight
test requirements. Consequently, 25 flights do not adequately support Project objectives and
NASA has no assurance that the appropriate number of test flights are planned or that test
program content (number of X-34 vehicles, sites, powered vs. unpowered flights, etc.) is the most
cost-effective to meet Project objectives. Each flight test costs NASA about $1 million.

Agency Guidance

Neither NASA nor Marshall has issued specific guidance on the conduct of X-vehicle flight test
programs such as the X-34. However, the NASA Systems Engineering Handbook, SP-6105,
dated June 1995, provides “… a generic description of systems engineering as it should be
applied throughout NASA” 25 [emphasis added] and includes guidance on the methods and
techniques, including testing, that can be used to verify that project requirements have been meet.
This engineering handbook defines verification as “… the process of confirming that deliverable
ground and flight hardware and software are in compliance with functional, performance, and
design requirements. The verification process, which includes planning, requirements definition,
and compliance activities, begins early and continues throughout the project life cycle.”

NPG 7120.5A, “NASA Program and Project Management Processes and Requirements,” dated
April 3, 1998, establishes definitive requirements for managing Agency programs and projects
such as the X-34. The NPG contains requirements that program/project managers properly
document management decisions. For example, the NPG states “A system for documentation
and tracking of risk decisions shall be implemented.” The NPG also establishes certain
requirements for managing risk.

Flight Tests Requirements

The X-34 contract requires a Basic Flight Test Program of two flights. However, on January 22,
1999, Marshall exercised contract Option 1, Optional Flight Test Program for 25 additional
flights at a cost of $10,095,798. This increased the total number of flights under contract to 27.
In accordance with NASA Research Announcement 8-14 and the X-34 contract, the parameters
for X-34 flight tests include altitudes up to 250,000 feet and speeds up to Mach 8. In addition to
testing RLV technologies embedded in the X-34 vehicle and a variety of experiments, the project



25
  The Handbook states, “The objective of systems engineering is to see to it that the system is designed, built, and
operated so that it accomplishes its purpose in the most cost-effective way possible, considering performance, cost,
schedule, and risk.” [emphasis added]

                                                         12
is to demonstrate “aircraft like” operability,26 that is, quick turnaround averaging 2 weeks
between flights, with a “surge” capability of 2 flights in 24 hours as defined in the draft X-34
Project Plan. As of October 1999, Marshall had separated the 27 flight X-34 flight test program
into four segments: unpowered flight segment (5 flights), first powered envelope expansion27
segment (7 flights), operability segment (7 flights including one contingency flight), and a final
maximum envelope expansion segment, with experiments, (8 flights).

Mission-Specific Requirements. The X-34 contract statement of work requires that the
contractor28 develop requirements compliance verification methodologies, which permit the
linking of NASA mission requirements to each test flight and to the verification process.
However, the contractor has not yet completed verification methodologies or flight software on
the Optional Flight Test Program because NASA has not yet established the mission- specific
requirements for each flight test.

Because Marshall had not determined the mission-specific requirements of the additional 25
flights, they were all identical 2.5 mach flights without additional speed, altitude, or other
performance mission requirements. The 25 “baseline” flights did not meet Project objectives,
which include testing the X-34 at speeds up to mach 8 and altitudes up to 250,000 feet. On
November 14, 1996, Marshall negotiated modification No. 2 to the X-34 contract which added a
pool of 100,000 labor hours to the contract in anticipation of the additional contractor effort that
would be required to develop necessary flight control software and to perform additional tasks to
support mission requirements, once Marshall identified them. As of November 1999, Marshall
still had not established the mission-specific requirements for each flight.

Contingency Flights. During our audit, Marshall officials acknowledged that the 27 test flights
include 1 or 2 “contingency”29 flights. A draft X-34 flight test schedule identified at least one
contingency flight to support the 24-hour turn around (two flights in 24 hours) portion of the
existing “operability” flight test segment, in the event the first attempt is not successful. The
need for this contingency flight does not appear warranted because the six-flight “operability”
segment of the flight test program offers other opportunities to attempt a 24-hour turnaround.
Until Marshall reviews and revalidates all X-34 flight test requirements, the Center should not
include such contingency flights in the X-34 flight test program.

X-34 Testbed for Space Transportation Experiments. The X-34 Project objectives include
use of the X-34 vehicle as a testbed to flight test Space Transportation technologies. In addition
to soliciting proposals for the X-34 test vehicle, NASA Research Announcement 8-14 also
solicited proposals for experiments to fly on the X-34 vehicle. Marshall has approved at least 10
experiments that it will fund30 and has identified a requirement for 15 flights to carry out these
26
   "Aircraft like" operability is defined in the X-34 Project Plan as a quick turnaround averaging 2 weeks between
flights, with a “surge “ capability of 2 flights in 24 hours.
27
   Envelope expansion refers to gradual increases in vehicle performance (speed and altitude) in each subsequent
flight.
28
   The contractor is Orbital Sciences Corporation.
29
   A contingency flight is an additional, back-up flight in the event the first attempt is not successful.
30
   Marshall had an initial $2 million budget for the experiments, but more funding will be needed to support the
composite tank experiment.

                                                         13
experiments. Multiple experiments can be satisfied concurrently by a single flight. However, the
current flight test plan of 27 flights will satisfy only about 3 or 4 of the 15 required experiment
flights because the speed and altitude on many of the 27 flights is not sufficient to meet
experiment requirements. Marshall hopes the initial X-34 flight tests will generate interest
within the U. S. launch community to use the X-34 to fly additional experiments.

Fastrac Engine Requirements. Requirements for the Marshall-developed Fastrac31 engine used
on the X-34 vehicles are dependent on the number of X-34 flights required to meet X-34 Project
objectives. Marshall has contracted for 4 engines to satisfy the planned32 22 powered flights,33 at
a total of more than $10 million.34 Because Marshall has not yet revalidated the number of
powered flights needed, and further engine testing is planned, Marshall should reassess the
number of needed engines.

Changes in Proposed X-34 Project Flight Test Program. Since the contract was awarded in
FY 1996, the proposed X-34 Project flight test program has undergone continuous change as a
result of both internal and external factors. Some of the changes Marshall made are illustrated
below:

     •   Twenty-five flights were added in the optional flight test program.

     •   The number of unpowered flights increased from 1 to 5 from August 1996 through
         August 1999. Although the X-34 Flight Test Planning Group determined in 1998 that a
         total of three unpowered flights were required, Marshall now plans to have five
         unpowered flights. The increase in unpowered flights is primarily related to a U.S. Air
         Force decision that the X-34 powered flights could not be made at White Sands Missile
         Range. As the number of unpowered flights increased, the number of powered flights
         decreased from 27 to 22.

     •   Twenty X-34 tow test runs35 using the A1A vehicle were added. The tow tests are
         considered risk mitigation and are intended to demonstrate vehicle landing gear, steering,
         etc. are acceptable prior to actual flight.

     •   Marshall has decreased the number of flights needed to demonstrate the “operability” of
         the X-34, from 25 flights in 12 months, to only 6 flights in 3 months.



31
   Marshall is developing the Fastrac engine in-house, with contractor support, using currently available technology.
Initiated in 1996, separately from the X-34 Project, Fastrac is to reduce launch costs by providing a low cost booster
for small payloads. Fastrac will be the main propulsion for the X-34 vehicle.
32
   Per current plans, five of the 27 flights are to be unpowered.
33
   The number of required engines depends on the number of flights and the expected life of the engine. Marshall
estimated that each engine may be used for about seven flights.
34
   Marshall officials told us the 4 flight engines cost about $1 million each and that the 18 engine refurbishments
totaled about $6 million. The engines generally must be refurbished after each use.
35
   The first X-34 vehicle assembled, A1, will be used for the tow tests. A1 will be towed across the White Sands
Missile Range to verify functioning of components including the landing gear and steering.

                                                         14
     •   There originally was to be a test article (A1) and one flight vehicle (A2). This
         requirement changed, incrementally, to three flight vehicles (A1A, A2, and A3). A1A
         will be used only for tow tests and the five unpowered flights.

Marshall’s X-34 Project Office did not properly document the rationale for such changes.
Specifically, Marshall did not document the available alternatives or options to meet X-34
requirements, including their benefits and disadvantages or the rationale for the options Marshall
selected. Substantial changes such as these should also be supported by cost/benefit analyses. In
the absence of adequate support for the proposed X-34 flight test program, NASA has no
assurance that all 27 flights are needed. Each flight will cost NASA about $500,00036 under the
fixed-price contract.

Expanded Flight Test Program. Marshall has proposed an expanded flight test program, which
will add up to 10 flights to the planned 27 X-34 flight tests. Marshall identified FY 2001-2003
funding requirements for 7 to 10 additional flights at about $1 million each. Marshall officials
told us these flights are needed to support the flight requirements of the 10 experiments identified
thus far using the X-34 vehicle as a flight testbed. Marshall has scheduled eight flights for the
A3 vehicle37 on which the experiments will fly. However, Marshall officials stated that it is
likely only three to five of the eight A3 flights will attain the speed and/or altitude needed to
support the experiments. For this reason, Marshall has identified the need for additional flights
under the expanded flight test program. Marshall should cancel the proposed expanded flight
test program, until a reassessment of all X-34 flight test requirements has been completed.
Canceling the proposed 7 to 10 additional flights would save up to $10 million. The extent of
any savings is contingent on the results of Marshall’s reassessment of X-34 flight test
requirements.

Use of Other Flight Test Vehicles. Marshall does not plan to use the A2 vehicle, which is
expected to fly 14 flights, to support the experiments. The limited speed (up to mach 5) planned
for the A2 vehicle may be sufficient to benefit some of the experiments. Therefore, Marshall
should give consideration to also using the A2 vehicle to support the experiments. This
alternative should be addressed as part of the reassessment of overall flight test requirements.

Recommendations, Management's Response, and Evaluation of Response

The Marshall Center Director should:

6.      Establish mission-specific requirements for X-34 flight tests, determine the
        minimum number of flights required to satisfy X-34 Project objectives, and delete
        from the X-34 contract those flights that are not justified.
Management’s Response. Concur. In January 2000, Marshall provided mission-specific flight
test requirements to Orbital Sciences Corporation. As each flight is planned, minor adjustments

36
  This amount reflects Orbital contractor costs only and does not include in-house Agency costs, range costs, etc.
37
  The third X-34 vehicle is designated the A3 and will be the only vehicle on which the experiments will be
installed.

                                                         15
may be made for the individual mission flight software. The X-34 Project Plan identifies the
requirement for a project controlled Flight Test Plan that documents the requirement for 27 test
flights. The X-34 Project Manager will ensure that, as part of the ongoing replanning activity,
flight requirements will be appropriately revalidated (see Appendix I).

Evaluation of Management’s Response. The actions taken and planned by management are
responsive to the recommendation. The recommendation is resolved but will remain
undispositioned and open until agreed-to corrective actions are completed.

7.     Implement internal controls to appropriately document management decisions,
       including changes to the proposed flight test program.

Management’s Response. Concur. A project configuration control process has been put in
place to manage changes to documentation such as the flight test program and to better document
management decisions (see Appendix I).

Evaluation of Management’s Response. The actions taken and planned by management are
responsive to the recommendation. However, X-34 Project Office officials did not provide us
data on their configuration control process and, after receipt of the comments, stated the process
is not yet totally in place. Therefore, the recommendation is resolved but will remain
undispositioned and open until agreed-to corrective actions are completed.

8.     Cancel the proposed expansion of the flight test program until justification for the
       existing 27 flight test program has been reassessed and the total number of flights
       needed to meet Project objectives have been determined and revalidated. The
       reassessment should consider using the A2 vehicle to support experiments.

Management’s Response. Concur. Currently, there are no budget or contractual actions planned
for an expanded flight program beyond the existing 27-flight test program (see Appendix I).

Evaluation of Management’s Response. The actions taken by management are sufficient to
disposition and close the recommendation for reporting purposes.

9.     Reassess the number of Fastrac engines required to support the X-34 Project based
       on results of the reassessment of test flight requirements for the X-34 and on engine
       reliability tests, and eliminate any unneeded engines from the contract.

Management’s Response. Concur. The X-34 Project Office will reassess the number of Fastrac
engines required to support the Project and, based on this assessment, will eliminate any
unneeded engines from the contract (see Appendix I).

Evaluation of Management’s Response. The actions planned by management are responsive to
the recommendation. The recommendation is resolved but will remain undispositioned and open
until agreed-to corrective actions are completed.


                                                16
17
Finding C. Documentation for Space Transportation Programs/Projects

NASA has not finalized and approved the X-34 Project Plan or the program commitment
agreement and program plan for the Future-X/Pathfinder Program, which includes the X-34
Project. This condition exists because Marshall and the Office of Aero-Space Technology have
not complied with Agency directives, have not placed sufficient emphasis on timely preparation
of program documentation, and have not established appropriate internal controls to ensure such
documentation is prepared prior to granting approval for program/project implementation. As a
result, delays occurred (1) in obtaining senior Agency approval for the program management
concepts and the internal control functions to be used in managing these high-priority, costly
programs, and (2) in defining the roles and responsibilities of NASA officials for managing
them. Delays in preparing program documentation can also adversely affect the Agency’s
management of technology needed to reduce the cost of access to space.

Agency Guidance on Program Documentation

Agency directives on program/project management require that both a program commitment
agreement and a program/project plan be prepared early, in the formulation phase, prior to actual
implementation of the program or project. NASA Policy Directive (NPD) 7120.4A,
"Program/Project Management," dated November 14, 1996, requires that the plans be in place
prior to the start of project implementation. NPG 7120.5A, "NASA Program and Project
Management Processes and Requirements," dated April 3, 1998, defines the requirements that
managers must meet in formulating, approving, implementing, and evaluating programs and
projects. (Additional information on program documentation requirements is in Appendix H).

Compliance with Agency Directives. Marshall and the Office of Aero-Space Technology have
not finalized and approved X-34 program documentation. In February 1998, more than 3 years
after the original X-34 Program was initiated, Marshall prepared a Draft X-34 Program Plan.
However, neither the Marshall Center Director nor NASA Headquarters approved the plan. In
February 1999, when NASA Headquarters redesignated the X-34 a “Project” within the
Future-X/Pathfinder Program, the draft plan was to be rewritten as a Project Plan; however as of
November 1999, Marshall and the Office of Aero-Space Technology have not completed and
approved it.

As of November 1999, Marshall and the Office of Aero-Space Technology also did not have an
approved Program Commitment Agreement or Program Plan for the Future-X/Pathfinder
Program. Although both documents have been drafted, they have not yet been approved by
NASA Headquarters. Marshall initiated funding/budgets for the Future-X/Pathfinder Program in
1997, requesting that initial funding be provided in FY 1999. NASA Headquarters approved the
funding requests, constituting program implementation, and funds were included in the Agency
budget for FY 1999. We attribute the noncompliance with Agency directives primarily to a lack
of emphasis by Marshall and the Office of Aero-Space Technology on program documentation
requirements.



                                               18
Compliance with Procurement Notices. On February 22, 1999, NASA’s Associate Deputy
Administrator issued a letter, subject “Integration of Acquisition Planning with NPG 7120.5A,
NASA Program and Project Management Processes and Requirements,” to the Associate
Administrator for Procurement. The letter emphasized the importance of complying with
applicable Agency directives and directed the Associate Administrator for Procurement not to
process solicitations initiated by Agency programs/projects if program documentation was
incomplete. To ensure compliance with the Associate Deputy Administrator’s guidance, the
Associate Administrator for Procurement issued Procurement Information Circular 99-6, “ NPG
7120.5 Approvals and Requirements for the Release of Solicitations,” dated March 26, 1999; and
Procurement Notice 97-28, “NASA Internal Programmatic Approval Documentation,” dated
March 26, 1999. The Notice and Circular both prohibit Center Procurement Officers from
issuing solicitations on Agency programs and projects for which program documentation is
incomplete. The Circular and Notice require a new certification to accompany all purchase
requests, stating that all program documentation has been completed and approved.

Marshall issued a Request for Offer for the Fastrac engines on April 20,1999. Marshall
subsequently awarded contract NAS8-99103 valued at $11.3 million on July 30, 1999, for the
Fastrac engines to support the X-34 flight test program. When the Request for Offer was issued
and the contract was awarded, program documentation for both the X-34 Project and the Future-
X/Pathfinder Program had not been completed and approved by NASA Headquarters. The
Marshall Contracting Officer provided us a copy of a letter from the X-34 Project Office stating,
“This confirms prior verbal certification that all required documentation under NPG 7120.5 for
X-34 is current and approved.” The X-34 Project Office officials stated they certified that all
X-34 documentation was complete because they did not think the requirement in the Circular and
Notice applied to the X-34 since the project had been previously approved for implementation
(upon funding approval) by NASA Headquarters.

We do not agree that the X-34 Project is exempt from requirements in Procurement Notice
97-28. The Procurement Notice clearly states the “Purpose” is “To ensure that no affected
solicitation is released prior to the approval of key programmatic documentation required by
NPG 7120.5, NASA Program and Project Management Processes and Requirement.”

Program Documentation Content. Agency Space Transportation programs and projects
respond to the goals, objectives, and requirements specified in NASA and Enterprise strategic
plans. The NASA Strategic Management Handbook requires increasing detail at lower levels of
program documentation. Program documentation should provide full details for implementing
strategic plans. Aero-Space Technology Enterprise officials stated that the specific, quantified
technology requirements and metrics missing from Agency and Enterprise strategic plans (see
Finding A) would be provided in Center-level, program and project documents. However,
Marshall’s draft plans for Future-X/Pathfinder and X-34 do not provide adequate levels of detail
on the Space Transportation technologies that are to be addressed. Specifically, Future-
X/Pathfinder and X-34 are technology development/demonstration initiatives, however:

   •   The draft program/project plans did not comply with NPG 7120.5A and address the
       technology readiness levels of either those technologies embedded in the X-34 vehicle or

                                               19
          the experiments to be flown as part of the X-34 flight test program. NPG 7120.5A
          requires a Technology Requirements Synthesis at both program and project levels which
          identifies and establishes the status of all technologies required. A Technology
          Requirements Synthesis is performed to “…examine project concepts and assess
          technology requirements for feasibility, availability, technology readiness, opportunities
          for leveraging research, and new technologies.”

      •   The draft X-34 plan did not adequately address flight test objectives, specify the
          procedures to be used to analyze test results, or effectively identify processes to
          validate/verify embedded RLV technologies (see Finding B for details on flight tests).

      •   The draft X-34 plan also did not indicate specifically how X-34 technology results would
          be used by NASA (see Finding A for details).

      •   The draft program/project plans did not adequately identify the metrics or processes for
          evaluating technology results.

      •   The draft program/project plans did not establish a requirement to input results of the
          X-34 Project or other Future-X/Pathfinder projects into the Agency technology database.

The lack of appropriate strategic plans at the Agency and Enterprise levels (see Finding A) may
be a contributing factor to the untimely and deficient program and project documentation for
Space Transportation initiatives identified by this and prior NASA Office of Inspector General
audits of Space Transportation. Complete and accurate strategic planning documents at Agency
and Enterprise levels would facilitate the preparation and maintenance of current program
documentation.

Recommendations, Management's Response and Evaluation of Response

The Associate Administrator, Office of Aero-Space Technology, and the Marshall Center
Director should:

10.       Finalize all required program documentation for the X-34 and Future–X/Pathfinder
          as required by NPD 7120.4A, “Program/Project Management,” and NPG 7120.5A,
          “NASA Program and Project Management Processes and Requirements.”

Management’s Response. Concur. The Marshall Future-X/ Pathfinder Program Office is
working with the Office of Aero-Space Technology to complete the Future-X/Pathfinder
Program Commitment Agreement and Program Plan and the X-34 Project Plan at the earliest
possible date (see Appendix I).

Evaluation of Management’s Response. The actions taken and planned by management are
responsive to the recommendation. The recommendation is resolved but will remain
undispositioned and open until agreed-to corrective actions are completed.


                                                  20
11.    Revise the existing draft program commitment agreement and draft
       program/project plans for the Future-X/Pathfinder and X-34 Project to better
       define approximate technology requirements and expected results (benefits), and
       establish performance metrics and an evaluation process to evaluate results.

Management’s Response. Concur. The Future-X Pathfinder Program Commitment Agreement
and Program Plan and X-34 Project Plan are being updated, and management will ensure that
appropriate technology requirements, expected results, and performance metrics are included.
The Pathfinder Program Office and the Office of Aero-Space Technology will work together to
complete these documents at the earliest possible date (see Appendix I).

Evaluation of Management’s Response. The actions taken and planned by management are
responsive to the recommendation. The recommendation is resolved but will remain
undispositioned and open until agreed-to corrective actions are completed.

The Associate Administrator, Office of Aero-Space Technology, should:

12.    Establish internal control procedures within the Enterprise’s Programs Division to
       ensure that responsible Centers submit required program/project documentation
       during the program formulation process.

Management’s Response. Concur. The Office of Aero-Space Technology Headquarters Office
Work Instruction for "Program Project Formulation and Approval (HOWI: 7100-ROO7B,
September 1999)" established procedures for the preparation of documentation during the
program formulation phase. Management will continue to ensure that responsible Centers
submit required program/project documentation during the program formulation process (see
Appendix I).

Evaluation of Management’s Response. The actions taken and planned by management are
sufficient to disposition and close the recommendation for reporting purposes.

13.    Discontinue the practice of approving programs and projects for which Program
       Commitment Agreements and program/project plans are not yet prepared or
       approved, and place added emphasis on compliance with program documentation
       requirements specified in Agency directives NPD 7120.4A and NPG 7120.5A.

Management’s Response. Concur. Management will ensure that all Enterprise programs and
projects will be in compliance with and have the proper documentation specified in NPD
7120.4A and NPG 7120.5A (see Appendix I)

Evaluation of Management’s Response. Management's original response was only partially
responsive because management did not identify specific corrective actions. However, on
March 27, 2000, the Office of Aero-Space Technology provided additional comments that
identified planned actions as follows:
       Since development of the documentation is a shared responsibility, we [Headquarters and
       Marshall] are putting special emphasis and working with the Chief Engineer’s Office to ensure that

                                                      21
       the X-34 program is in compliance with the NPD. Additionally, the Office will lead a
       Headquarters-Center team to coordinate the review and update, as appropriate, of ISO
       [International Organization for Standardization] 9000 Office Work Instructions to ensure these
       procedures cover all requirements of and contain appropriate emphasis on compliance with the
       NPD 7120.4A and NPG 7120.5A.

Based on the additional comments, we consider the recommendation resolved but
undispositioned and open until agreed-to corrective actions are completed.

14.    Require responsible Centers to clearly identify in program documentation the
       approximate technology requirements, expected results (benefits), and performance
       metrics for evaluating actual results and to establish internal control procedures to
       ensure that the documentation effectively implements Enterprise strategic plans.

Management’s Response. Concur. Management has recognized this deficiency. The
documentation for the two major programs (Aviation Safety and Ultra Efficient Engine
Technology) initiated in FY 2000 identifies the expected requirements, benefits, and metrics (see
Appendix I).

Evaluation of Management’s Response. The actions taken and planned by management that
were included in their original response were only partially responsive because management did
not identify specific corrective actions. As stated above, we received additional comments that
identified planned actions as follows:

       The wide variety of programs managed by this Office (flight programs, focused research and basic
       research) precludes a set standard for the metrics as they vary from program to program. As noted
       in the original response, the Office is improving the documentation and the Office is in the process
       of establishing internal controls by modifying appropriate OWI's [Office Work Instructions] to
       ensure all future documentation, as submitted by the centers and approved by the Office clearly
       defines technology requirements and effectively implements strategic plans.

Based on the additional comments, we consider the recommendation resolved but
undispositioned and open until agreed-to corrective actions are completed.

The Marshall Center Director should:

15.    Establish internal controls to ensure solicitations are not issued on
       programs/projects for which program documentation is not complete as required by
       Procurement Notice 97-28 and Procurement Information Circular 99-6.

Management’s Response. Concur. Internal controls have now been established to ensure
compliance with the policy. The Automated Procurement Request System at Marshall has been
revised to include mandatory fields regarding applicability and compliance with NPD-7120
documentation requirements. Procurement requests cannot be processed without completing the
mandatory fields (see Appendix I).
Evaluation of Management’s Response. The actions taken and planned by management are
responsive to the recommendation. However, we requested additional clarification of corrective

                                                       22
actions to determine their effectiveness, which disclosed the need for further actions. On
March 28, 2000, Marshall officials agreed to take additional actions to further strengthen internal
controls and to ensure that the revisions to the Automated Procurement Request System are
effective.

The recommendation is resolved but will remain undispositioned and open until agreed-to
corrective actions are completed.

16.    Place added emphasis on compliance with program documentation requirements
       specified in Agency Directives NPD 7120.4A and NPG 7120.5A, and ensure that
       programs and projects prepare documentation in a timely manner.

Management’s Response. Concur. Marshall has established a Systems Management Office that
has charter responsibility for ensuring that Center programs and projects comply with NPD
7120.4A and NPG 7120.5A. The Systems Management Office conducts independent evaluations
(as required by NPG 7120.5A) of Marshall programs and projects (Microgravity and Space
Transportation) that report to the Marshall Project Management Council and Marshall Lead-
Center Program Management Councils. If the Systems Management Office or the Directorate
program/project review process had been in place previously, the X-34 Project’s noncompliances
would have been identified and corrected in a timely manner.

Evaluation of Management’s Response. The actions taken and planned by management are
responsive to the recommendation. Management actions are sufficient to disposition and close
the recommendation for reporting purposes.




                                                23
                   Appendix A. Objectives, Scope, and Methodology

Objectives

The overall objective was to assess the status of the X-34 Demonstrator Project in meeting
technology requirements for the next generation RLV. Specifically, we determined whether:

       •     Orbital Sciences Corporation was fulfilling its obligations under the contract,
       •     key technologies were being identified and tested in accordance with
             milestones, and
       •     NASA’s process for transferring X-34 technology was effective.

To evaluate NASA’s planned use of X-34 technologies, we reviewed the management of Space
Transportation technology requirements by the Aero-Space Technology Enterprise and Marshall
in view of the significant role Marshall has as Lead Center for Space Transportation. We also
reviewed the interrelationship of the X-34 technology to overall Space Transportation technology
requirements.

Scope and Methodology

We performed audit work at Marshall; NASA Headquarters; and the Orbital Sciences
Corporation, Dulles, Virginia, facility.

•   To determine whether Orbital Sciences Corporation was fulfilling its obligations under the
    contract, we reviewed contractor compliance with various contract requirements to include
    meeting milestone due dates, cost and schedule targets, and deliverable requirements.

•   To determine whether key technologies were being identified and tested in accordance with
    milestones, we reviewed the contractor’s record of completion of technology milestones
    under the X-34 contract.

•   To determine whether NASA’s process for transferring X-34 technology was effective, we
    reviewed NASA’s operation of the Agency’s technology database to include the extent of
    input from the X-34 Project as well as the number of queries by database users. We also
    reviewed the adequacy of Agency guidance on technology management.

•   To determine how NASA planned to use the technologies developed on the X-34 Project, we
    reviewed Future-X/Pathfinder and X-34 Program/Project documentation and NASA,
    Marshall, and Aero-Space Technology Enterprise strategic planning documents, and we
    evaluated adequacy of the overall process established to acquire the technologies needed to
    reduce launch costs.




                                                  24
                                                                                        Appendix A

We examined the policies, procedures, and practices NASA and the Aero-Space Technology
Enterprise used in preparing strategic planning documents for Space Transportation. We reviewed the
limited documentation on the rationale and support for the proposed X-34 flight test program. We
also reviewed the current program status for the X-34. We interviewed personnel involved in
preparing program documentation, flight test plans, and strategic planning documents. Our interviews
included Aero-Space Technology officials, Marshall personnel, and personnel at the Orbital Sciences
Corporation headquarters facility at Dulles, Virginia. We did not assess the scientific requirements
underlying the X-34 flight requirements.

Management Controls Reviewed. We reviewed NASA’s policies on program/project
management and strategic planning. Specifically, we reviewed NPD 7120.4A, “Program/Project
Management”; NPG 7120.5A, “NASA Program and Project Management Processes and
Requirements”; and NPG 1000.2, “NASA Strategic Management Handbook.” Management
controls regarding strategic planning for Space Transportation, flight test plans, and program
documentation should be improved, as discussed in the findings.

Computer-Processed Data. We used computer-processed reports from NASA Headquarters,
Marshall, and Orbital Sciences Corporation to assess the status of the X-34 Project and to
evaluate the proposed X-34 flight test program. We reviewed and tested selected data but did not
verify the overall validity of the reports. The lack of verification did not affect our audit results.

Prior Audit Coverage. There has been no prior audit coverage on the X-34. However, we
issued the following reports on the X-33 Advanced Technology Demonstrator, a “sister” program
of the X-34 under the Marshall-managed RLV Program:

On March 29, 1999, we issued audit report IG-99-019, “X-33 Cooperative Agreement,” which
states that NASA’s use of a cooperative agreement contributed to deficiencies in program
management processes including planning and execution, resource management, and property
control. The report made recommendations to improve these processes.

On November 3, 1998, we issued audit report IG-99-001, “X-33 Funding Issues,” which
discusses NASA’s lack of properly recognizing Agency requirements as bona fide needs which
contributed to significant financial management deficiencies on the X-33 program.
This approach not only did not properly recognize Agency requirements, but also may
have made it more difficult for NASA to reach a consensus on RLV technology requirements.

In August 1999, the General Accounting Office (GAO) issued Audit Report Number
NSIAD-99-176: “Space Transportation – Status of the X-33 Reusable Launch Vehicle Program,”
which identifies problems in NASA’s strategic planning for Space Transportation. Specifically,
the report states that NASA’s Fiscal Year 2000 Performance Plan does not include performance
targets that establish a clear “growth path leading from the X-33 flight test vehicle to an
operational SSTO [Single-Stage-To-Orbit] vehicle.” The GAO report points out that the


                                                 25
Appendix A

NASA Advisory Council has also voiced similar concerns. GAO recommended “the NASA
Administrator include in the agency’s Fiscal Year 2001 Performance Plan performance targets
for the X-33 Program that establish a clear path leading from the X-33 flight-test vehicle to an
operational RLV and show progress toward meeting the agency’s objective of significantly
reducing launch costs.” NASA management concurred with the recommendation.

Audit Field Work. During February through December 1999, we conducted field work at
Marshall; NASA Headquarters; and Orbital Sciences Corporation Headquarters, Dulles, Virginia.
We performed the audit in accordance with generally accepted government auditing standards.




                                                26
                                       Appendix B. Background

Since the 1970's, NASA has searched for a cheaper launch vehicle, which led to the decision to
build the Space Shuttle. Although the original intent of the Space Shuttle Program was to
significantly reduce NASA’s cost of access to space, the Shuttle has not come close to the flight
rates (as high as 57 flights annually) anticipated early in the program. The Shuttle fleet is
currently able to sustain only about seven or eight flights per year, and the maximum flights in
any year was nine (1985). As a result, the Shuttle has proven expensive to launch (about $300 -
$500 million per launch depending on the number of flights launched annually), and NASA has
spent much of the last decade looking for a way to reduce launch costs. NASA’s original goal of
reducing the launch cost from $10,000 per pound to $1,000 per pound by 2006 may not be
realized until 2010–2011 or later.

NASA’s Access to Space study in 1993 determined that an RLV offered advantages over use of
an expendable launch vehicle. Specifically, while the development and production costs of an
expendable launch vehicle primarily determine launch costs, the cost of launching an RLV is
determined mainly by the number of times the RLV can be used. A higher flight rate for an RLV
allows better amortization of the development costs, resulting in a lower overall launch cost per
flight.

The fact that the Shuttle has not been successful in significantly reducing launch costs has lead to
increased concern by Congress and OMB (see Appendix D) that NASA find a solution. NASA
expected to make a decision before December 31, 2000, on an RLV to replace the Shuttle.
Under the original RLV/Venture Star38 timetable, NASA and industry partners had hoped the X-
33 Program would permit them to make a decision on Venture Star by the end of 1999. The
decision on a next-generation RLV involves several decisions addressing what the next
generation RLV will look like, when it can be operational, how it will be phased in to replace the
existing Shuttle, and who will own and operate it. According to a NASA in-house study
completed in February 1999, “Not enough knowledge is available today to commit to a Shuttle
replacement.” NASA simply does not have the technology(s) at this time to support the decision.
It is unlikely that NASA can make the decision prior to 2002 or 2003 at the earliest, and it may
be the middle of the next decade before an informed decision can be made.

As the Lead Center for Space Transportation, Marshall has extensive responsibility for
implementing the Agency’s Space Transportation mission managed by NASA’s Office of Aero-
Space Technology. Marshall’s responsibility includes participating in strategic planning for the
Space Transportation mission area.




38
     Venture Star is a next-generation RLV concept proposed by Lockheed Martin Skunk Works.

                                                       27
Appendix B

The Center’s Space Transportation Directorate has responsibility for various Space
Transportation elements including the following:

•    The Advanced Space Transportation Program Office is responsible for developing, maturing,
     and performing ground testing of the technologies needed to meet NASA’s unique mission
     requirements and for reducing space transportation costs to enable commercial development
     of space.

•    The Future-X /Pathfinder Program Office has responsibility for the X-34 and X-37 Projects
     and is responsible to demonstrate advanced space transportation technologies through the use
     of flight experiments and experimental vehicles.

•    The X-33 Program is a one-half scale size advanced technology demonstrator and is an
     integral part of the RLV Program, which NASA hoped would lead to a commercially owned
     and operated RLV --- the Venture Star. While Venture Star is still an option for the next-
     generation RLV, NASA’s ongoing Integrated Space Transportation Plan does not identify
     Venture Star as the likely successor to the Space Shuttle.

The X-34 Project is subject to oversight by several groups, internal and external to NASA.
Marshall’s Program Management Council, a senior-management group chaired by the Deputy
Center Director, has primary oversight of the X-34 Project.39 Additionally, the Space
Transportation Council, the NASA Advisory Council, and the Aero-Space Technology Advisory
Council all provide Space Transportation expertise. Independent reviews such as the Non-
Advocate Reviews40 and Independent Annual Reviews41 provide the Program Management
Council with objective evaluations of Project conformance to plans and objectives.




39
   NPG 7120.5A permits certain projects to have Center-level oversight.
40
   The Non-Advocate Review team performs its reviews during program formulation phases as input to the program
approval process; the reviews include the verification of life-cycle cost estimates.
41
   The Independent Annual Review is an analysis of the status of commitments (performance, cost, and schedule) as
compared to the program/project baseline and established thresholds.


                                                       28
                  Appendix C. Federal and Agency Requirements

The Government Performance and Results Act (GPRA), passed by Congress in 1993, requires
Federal agencies including NASA to accomplish the following:

   •   Develop an Agency 5-year Strategic Plan, setting forth NASA’s mission, long-term goals,
       objectives, implementing strategies, and associated resource requirements. Initial
       submission to the OMB and Congress was September 30, 1997, with updates at least
       every 3 years.

   •   Prepare annual Agency Performance Plans that establish performance goals, measurable
       objectives, and associated resource requirements needed to achieve long-term goals. The
       initial plan, for FY 1999, was to be submitted to OMB by September 1997. As part of the
       Performance Plans, agencies may request that OMB grant managerial waivers on
       personnel levels, salaries, and budget constraints for programs indicating improved
       performance within program funding.

   •   Submit annual Agency Performance Reports that will measure goal achievement and/or
       identify reasons for failure in goal achievement. The initial report is to be submitted to
       the President and Congress by March 31, 2000, for FY 1999.

NPG 1000.2, “NASA Strategic Management Handbook,” documents the Agency’s management
policies, processes, guidelines, and responsibilities for strategic management as required by
GPRA. Specifically, the handbook delineates the processes, schedules, and management
responsibilities for the following:

   •   Integrating Strategic Planning with the budget process
   •   Developing detailed Implementation Plans and strategies
   •   Managing the execution of strategies through programs and processes
   •   Evaluating performance and assessing and reporting results

The handbook requires that the NASA Strategic Plan and the Enterprise Plans include specific
elements to ensure consistency and meet GPRA requirements. The specific elements should
include broad vision and mission statements, identification of customers and applicable
environments, as well as appropriate goals, objectives, and implementing strategies.

   •   Goals elaborate on the mission statement and constitute a specific set of policy,
       programmatic, or management outcomes for the programs and operations covered
       in the strategic plan.




                                                29
Appendix C

   •   Objectives are specific milestones and target levels of near-term outputs that are
       to be achieved during strategic implementation. Objectives should be:
       • Specific - reflect the accomplishments to be achieved
       • Measurable – either quantifiable or verifiable
       • Aggressive, but attainable
       • Results-oriented – focused on the desired outputs and outcomes
       • Time-bound – achieved within a specific time frame

   •   Implementing Strategies should include a description of how the goals and
       objectives will be achieved. Each strategy should have details addressing:
       • Key elements, programs, processes, values, and culture
       • Metrics to include performance indicators, and an evaluation process to
           determine progress and indicate how evaluations are to be used to establish or
           revise goals
       • Resource requirements with an investment strategy

The handbook states that annual Performance Plans required by GPRA are to establish
performance goals, measurable objectives, and associated resource requirements needed to
achieve long-term goals. The handbook also requires that Enterprise Strategic Plans, which flow
down from, and must align with, the NASA Strategic Plan be reviewed and updated, as required,
annually. The plans are to include performance goals and metrics for the Enterprise as well as
top-level resource requirements. NASA’s annual GPRA Performance Plan presents the
integration of the performance planning inputs provided by the Agency’s Strategic Enterprises.
Consistent with GPRA requirements, this plan should include the following:

   •   Quantifiable performance goals
   •   Level of performance to be achieved during the budget year
   •   Human, capital, or other resources required to meet performance goals
   •   Specific nonprogrammatic actions planned within the time frame and fiscal scope of the
       proposed budget
   •   Metrics to be used as performance indicators

The NASA Strategic Management Handbook and the NASA strategic plans assign Marshall the
mission area of Space Transportation Systems.




                                              30
                  Appendix D. Congressional, OMB, and GAO Concerns

Congress, OMB, and the GAO have expressed concern about NASA’s strategic planning for
Space Transportation. Other NASA external oversight elements have also voiced concerns. In
response to congressional concerns in the early 1990’s over the continued high cost of launching
payloads into space, NASA performed the Access to Space Study in 1993. This study concluded
that a Single Stage to Orbit RLV offered the most potential for significantly reducing the cost of
access to space, but at substantial risk. NASA’s X-33 Program continues to pursue the Single
Stage to Orbit RLV concept, although numerous difficulties have been encountered.

OMB Concerns

OMB expressed concern over the adequacy of NASA’s strategic planning for replacing the
Shuttle and lowering launch costs. In November 1996, OMB stated in its Passback42 guidance:

           NASA’s budget assumes about $4B over 5 years for a variety of technologies, upgrades and
           development activities related to space launch (e.g., X-33, X-34, ASTP [Advanced Space
           Transportation Program], Shuttle upgrades, CRV [Crew Return Vehicle], Hyper-X). Yet it is
           difficult to understand the strategy that will enable a decision on a future space transportation
           architecture for NASA. OMB requests that the appropriate offices within NASA and NASA’s
           Independent Program Assessment Office coordinate to create a strategic plan that outlines: (1) the
           Agency’s space launch requirements; (2) current investments in technology, development, and
           operations of space launch vehicles; and, (3) the objectives, strategy, budget and key decisions that
           will enable a future space transportation architecture for NASA. OMB also requests that the RLV
           criteria documents be incorporated in such a plan, the decision criteria for Phase 3 be updated to
           reflect the X-33 award, and the criteria be independently reviewed as earlier agreed to by NASA.
           NASA should submit the launch plan to OMB no later than September 1997.

OMB was concerned about the adequacy of NASA Strategic Plans for acquiring the technology
needed to develop a next-generation RLV. Agency efforts for strategic planning in response to
this 1996 OMB Passback were not sufficient, and OMB again expressed concern about NASA’s
plans for reducing launch costs in the 1997 Passback guidance:

           The President’s 1994 National Space Transportation Policy calls for an end-of-the-decade decision
           on the development of an operational launch system to reduce NASA’s launch costs. … OMB …
           recommends that before decisions are made on the allocation of funds, NASA present options
           developed by the private sector to OMB and OSTP [Office of Science and Technology Policy] on
           how they could lower NASA’s overall launch costs through either existing, planned, or new
           vehicles. Industry inputs could be accomplished through an RFP [Request for Proposal] with
           appropriate Terms of reference for the studies.




42
     OMB’s feedback/comments to NASA on previously submitted budget.

                                                           31
Appendix D

As a result of OMB concerns, NASA initiated the Space Transportation Architecture Study in
1998, and initiated phase III of the study, the Integrated Space Transportation Plan, in July 1999
to ensure NASA’s access to space requirements and industry requirements were appropriately
addressed.

GAO Concerns

Based on its recent audit43 of the X-33, a sister program of the X-34 within NASA’s RLV
Program, GAO concluded that NASA Strategic Plans for Space Transportation need
improvement. GAO reported that NASA’s FY 2000 Performance Plan for Space Transportation
does not contain sufficient metrics for measuring performance. GAO reported that NASA’s
Fiscal Year 2000 Performance Plan does not include performance targets that establish a clear
“growth path leading from the X-33 flight test vehicle to an operational SSTO [Single Stage to
Orbit] vehicle.” GAO recommended that “the NASA Administrator include in the agency’s
Fiscal Year 2001 Performance Plan performance targets for the X-33 Program that establish a
clear path leading from the X-33 flight-test vehicle to an operational RLV and show progress
toward meeting the Agency’s objective of significantly reducing launch costs.” NASA
management concurred with the recommendation and will include performance targets in the FY
2001 Performance Plan.

Oversight Organization Concerns

NASA oversight committees that are responsible to provide Space Transportation expertise have
also expressed concerns regarding NASA’s strategic planning for Space Transportation. In an
August 26, 1997, report to the Aero-Space Technology Advisory Committee, the Space
Transportation Subcommittee indicated its concern that NASA’s space technology programs
(X-34, Advanced Space Transportation Program, Hyper-X, Future-X/Pathfinder, etc.) are
somewhat unfocused across a wide range of future technologies, while the immense, near-term
challenge of achieving an operational RLV by 2012 was underfunded. Similarly, the NASA
Advisory Council indicated that the strategic path for the X-33 was not clear and that the goals
and expectations appear to be overstated and unrealistic. One of the members of the NASA
Advisory Council added that “… the strategic plan for Aero-Space Technology is in shambles.”




43
  Report Number NSIAD 99-176, Status of the X-33 Reusable Launch Vehicle Program, dated August 1999.

                                                    32
               Appendix E. Metrics for Acquiring Needed Technologies

To be effective, strategic planning should involve significant use of metrics. The NASA
Strategic Management Handbook requires that strategic planning documents include objectives
that are “quantifiable” or “measurable,” and states “NASA must be able to monitor its success in
achieving each objective.” The Handbook further requires that strategic planning include
implementing strategies, to include performance indicators, metrics, and a program evaluation
process to determine progress. Space Transportation technology management extensively
involves the development of hardware (engines, composite structures, composite/cryogenic fuel
tanks, thermal protection systems, avionics, etc.) for new boosters/launchers. NASA has been
performing hardware research and development for 4 decades; therefore, the Agency should be
able to establish measurable goals and metrics for Space Transportation. However, as stated in
Finding A, strategic planning documents do not clearly identify specific technology objectives,
requirements, and implementing strategies with appropriate metrics in quantitative and/or
qualitative terms to permit measurement and reporting of incremental progress. Additionally, the
plans do not identify how NASA will attain the critical goal of reducing launch costs. Agency,
Enterprise, and Marshall strategic planning documents do not indicate how the X-34 will
contribute to the needed technology for the next-generation RLV.

The technology requirement for each of the six core technologies44 needed for the next-
generation RLV should be clearly specified in quantitative and qualitative terms, to the extent
possible, that can be used to measure and report annual progress toward each requirement. For
example, if a better Thermal Protection System is needed for the next generation RLV, criteria
for defining the technology requirement might include:

     •   Temperature endurance capability
     •   Penetration (hardness) resistance to space debris
     •   Durability, maintainability (replacement) and operability

Specific requirement criteria should be established for all six RLV core technologies.

Achieving reduced cost of access to space is dependent on NASA’s successful maturing of
several core technologies that could be used on the next-generation RLV. In this endeavor,
NASA must identify the required technology in meaningful, measurable terms that include
metrics for reporting incremental progress over time. A comparison of current status with the
requirement identifies the existing “technology gap.” However, NASA has not yet identified an
acceptable method/metric for stating the technology requirement or for measuring progress.




44
  Technologies to be demonstrated are reusable cryogenic tankage, composite structures, durable thermal protection
systems, advanced avionics, reliable propulsion systems, and aircraft-like operations.

                                                       33
Appendix E

Space Transportation strategic planning documents at all levels use the term “technology”
extensively, but do not use the term Technology Readiness Level to identify Space
Transportation technology requirements and technology status or to report progress. According
to the NASA Technology Plan, dated December 1998, the metric TRL specifies the maturity of a
technology, incrementally, from 1 (not mature) through 9 (mature). Therefore, TRL's can be
used to identify the incremental change in each Space Transportation technology as it matures
(from TRL 1 to 2 to 3, etc.). The TRL metric is “quantitative” (1 – 9), but the definition of each
TRL level may also add a “qualitative” aspect to this metric. The absence of an appropriate
Space Transportation technology metric can adversely affect the Space Transportation strategic
planning function, including the ability to effectively specify technology requirements,
technology status, and technology progress. Without a means to effectively identify, measure,
and report technology progress, strategic planning documents do not adequately serve their main
purpose as planning tools. We believe the use of TRL's can be a useful metric in carrying out
NASA’s technology management task for Space Transportation. Other Enterprises and the
Aeronautics element of the Office of Aero-Space Technology already use the TRL metric.
However, other metrics may also be appropriate. Regardless of which metric(s) is chosen,
NASA must determine the appropriate metrics to support Agency Space Transportation strategic
planning.




                                                34
              Appendix F. Agency Strategic and Performance Plans

Strategic Plans

The NASA Strategic Management Handbook, NPG1000.2, requires a strategic plan to have
goals, objectives, and implementing strategies. Goals elaborate on the mission statement and
need not be in a quantitative or measurable form, but they must be expressed in a manner that
allows a future assessment of whether each is being achieved.

Objectives are specific milestones and target levels of near-term outputs that are to be achieved
during strategic implementation. Objectives should be specific, measurable (either quantifiable
or verifiable to allow NASA to monitor success in achieving each objective), results oriented,
and time phased. Implementing strategies should include a description of how the goals and
objectives will be achieved. The Space Transportation objectives in the FY 1998 Strategic Plan
related to X-33 and X-34 are to:

•   Complete research and development to enable U.S. industry to launch to Low Earth Orbit at
    $1,000 /lb. (1998 – 2002)
•   Revolutionize space launch capabilities – reduce the payload cost to low earth orbit by an
    order of magnitude ($1,000 per pound to orbit) (2003 – 2009)
•   Revolutionize space launch capabilities – reduce the payload cost to low earth orbit by an
    order of magnitude (hundreds of dollars per pound to orbit). (2010 – 2023)

The objectives for the FY 1999 Strategic plan for Space Transportation are similar to those for
FY 1998, but do not include dollar values for reduced launch costs. The time-phased objectives
in the FY 1999 Strategic Plan are to:

       •   Complete R&D [research and development] to enable US industry to significantly reduce cost
           of launches to Low Earth Orbit (LEO) [1998 – 2002];
       •   Reduce the payload cost to Low Earth Orbit by an order of magnitude. [2003 – 2009]; and
       •   Reduce the payload cost to LEO by an additional order of magnitude. [2010 – 2023].

Performance Plans

Our review of the objectives and performance measures in the FY 1999 NASA Performance Plan
included a comparison of strategic planning data for the Aero-Space Technology Enterprise’s
Aeronautics and Space Transportation missions. Our comparison showed Aeronautics objectives
and performance measures were more specific and more readily related to the Aeronautics goals
than the objectives and performance measures for Space Transportation. The Space
Transportation goal in the Enterprise’s FY 1999 Performance Plan is “Enable the full commercial
potential of space research and exploration,” and the objective is “Revolutionize space launch
capabilities.” The two performance measures are:




                                                    35
Appendix F

   •   Continue the X-33 vehicle assembly in preparation for flight testing
   •   Complete vehicle assembly and begin flight-testing of the X-34

Assuming these performance measures were met (neither the X-33 nor X-34 flew in FY 1999),
such objectives and performance measures do not readily provide meaningful metrics to measure
progress toward the goal. Appropriate metrics are needed to measure progress in acquiring
needed technologies and in moving toward the Agency goal of reduced Space Transportation
launch costs.

An example of one Aeronautics goal is “Enable U.S. leadership in global civil aviation through
safer, cleaner, quieter, and more affordable air travel.” An objective is “Contribute to aviation
safety by reducing the aircraft accident rate.” The performance measures for these objectives are:

   •   Characterize the Super-cooled Large Droplets (SLD) icing environment, determine its
       effects on aircraft performance, and acquire and publish data to improve SLD forecasting
       confidence.

   •   For the aviation safety areas of Controlled Flight into Terrain, runway incursion, and loss
       of control, identify the contributing causes to be addressed, potential solutions using
       current capabilities, and gaps that require technology solutions.

These Aeronautics performance measures clearly contribute to the objective and ultimately to
the goal. Performance measures for Space Transportation should likewise clearly contribute to
the objective and goal stated in the Performance Plan.




                                                       36
                   Appendix G. Space Transportation Architecture Study

In response to OMB direction in the FY 1999 budget passback guidance, NASA is performing a
Space Transportation Architecture Study. On July 20, 1998, NASA Headquarters issued a
Request for Offer to obtain industry input on the architecture study. The purpose of the study is
for industry to develop architecture options to meet NASA’s future space transportation
requirements with significant reductions in costs. Industry will compete its options for award,
and OMB will include the selected architecture in the President’s FY 2001 budget. The Space
Transportation Architecture Study called for up to nine architecture scenarios.45 The study is
being implemented in multiple phases including an initial phase to develop a detailed study
approach (completed in 1998) and one or more additional follow-on phases to fully develop
proposed space launch architectures with sufficient levels of detail to support decisions regarding
NASA budget.

In February 1999, in the second phase of the study, NASA received six proposed architectures
from private industry and the results of the NASA in-house study team. The Chief Engineer’s
Office briefed the Aeronautics and Space Engineering Board in June 1999. The study results
proposed alternative scenarios for keeping the Shuttle and/or for replacing it. Based on the study,
NASA initially proposed upgrading the Shuttle through 2008 and phasing it out by 2011 and
postponing the decision on specific criteria for the 2nd generation RLV until 2000.

However, in July 1999, NASA began Phase three of the architecture study because the NASA
Administrator was not satisfied with the Agency-identified Space Transportation requirements,
which were the baseline for the study. The Administrator considered the first set of requirements
too narrow in scope, because they addressed only currently planned Agency missions and did not
include other potential missions (space flights). NASA officials told us the Administrator
wanted another study (Phase 3) performed that considers the requirements not only for planned
missions, but also for missions not yet planned, such as satellite recovery, space exploration, and
building platforms in space. Human-rated missions46 and vehicles will be highlighted in the
Phase 3 study. NASA provided an initial briefing to OMB on October 5, 1999, with preliminary
recommendations on a Space Transportation architecture plan. NASA plans to give OMB a
final, more detailed briefing later in FY 2000.

NASA’s original goal of reducing launch costs to $1,000 per pound by 2006 probably will not be
met. Preliminary results of the current Space Transportation Architecture Study move the goal
beyond 2007 because a decision on the next-generation RLV cannot be made before 2002 or
2003 at the earliest and may be delayed until 2005.




45
     Each scenario addresses various new vehicle options and/or Shuttle upgrades.
46
     NASA space flight missions that have humans on board.

                                                          37
               Appendix H. Program Documentation Requirements

NASA Policy Directive (NPD) 7120.4A, “Program/Project Management,” dated November 14,
1996, requires that program documentation, to include program commitment agreements and
program/project plans, be in place prior to the start of project implementation. Paragraphs 1.b.(6)
and (b) state:

   •   The Agency commitment to execute the program will be documented in the Program Commitment
       Agreement which forms the basis for program implementation and evaluation plans.

   •   Signature on the Program Commitment Agreement by the Administrator and the Enterprise
       Associate Administrator formalizes Agency approval of the program.

   •   In order to ensure that all supporting organizations and entities understand and commit to
       providing the required support defined in the Program Commitment Agreement, all such
       agreements/commitments must be represented in Program and Project Plans. These plans must
       be in place prior to the start of implementation. [Emphasis added.]

NPG 7120.5A, "NASA Program and Project Management Processes and Requirements," dated
April 3, 1998, defines the requirements for formulating, approving, implementing, and evaluating
programs and projects and states: “The disciplined approach of program and project
management is now being applied to technology development programs to enable future
Agency missions.” [emphasis added]

NPD 7120.4A, "NASA Program/Project Management," dated November 14, 1996, establishes
the management system by which NASA shall formulate, approve, implement, and evaluate all
programs and projects established for development and operation of aeronautical and space
ground and flight systems and technologies. The process for approval of projects within a
program varies, depending on the size, nature, and criticality of the project. The specific process
for each program should be specified in the Program Commitment Agreement.

NPG 7120.5A, "NASA Program and Project Management Processes and Requirements," dated
April 3, 1998, establishes the management system for processes, requirements, and
responsibilities for implementing NPD 7120.4A. This management system governs the
formulation, approval, implementation, and evaluation of all Agency programs and projects
established to Provide Aero-Space Products and Capabilities. It is intended to support
accomplishment of the NASA programs and projects, consistent with established Agency
strategic planning, on schedule, and within budget, while satisfying the requirements of multiple
stakeholders and customers. The NPG provides the basic processes and requirements for the life
cycle of all programs and projects. The NPG shall be used specifically for programs/projects that
provide aerospace products or capabilities, that is, provide space and aeronautics, flight, and
ground systems, technologies, and operations satisfying the requirements of multiple
stakeholders and customers.




                                                  38
                                                                                   Appendix H

The NPG requires that program commitment agreements and program/project plans be prepared
in the formulation stage, prior to approval of the program/project. In fact, approval of the
agreement and plans constitutes Agency approval of the program/project. The NPG also
stipulates that program/project documentation should be consistent with and provide details for
implementing Agency and Enterprise strategic plans.




                                               39
Appendix I. Management’s Response




               40
     Appendix I




41
Appendix I




             42
     Appendix I




43
Appendix I




             44
     Appendix I




45
Appendix I




             46
     Appendix I




47
Appendix I




             48
     Appendix I




49
Appendix I




             50
                           Appendix J. Report Distribution

National Aeronautics and Space Administration (NASA) Headquarters

A/Administrator
AE/Chief Engineer
AI/Associate Deputy Administrator
B/Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
G/General Counsel
H/Associate Administrator for Procurement
J/Associate Administrator for Management Systems
JM/Director, Management Assessment Division
R/Associate Administrator for Aero-Space Technology
RG/Director, Goals Division
RP/Director, Programs Division

NASA Center Directors

Director, George C. Marshall Space Flight Center
Chief Counsel, Kennedy Space Center

Non-NASA Federal Organizations and Individuals

Assistant to the President for Science and Technology Policy
Deputy Associate Director, Energy and Science Division, Office of Management and Budget
Branch Chief, Science and Space Programs Branch, Energy and Science Division, Office of
  Management and Budget
Associate Director, National Security and International Affairs Division, Defense Acquisition
  Issues, General Accounting Office
Professional Assistant, Senate Subcommittee on Science, Technology, and Space

Chairman and Ranking Minority Member - Congressional Committees and Subcommittees

Senate Committee on Appropriations
Senate Subcommittee on VA, HUD, and Independent Agencies
Senate Committee on Commerce, Science, and Transportation
Senate Subcommittee on Science, Technology, and Space
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on VA, HUD, and Independent Agencies
House Committee on Government Reform



                                               51
                                                                                  Appendix J

Chairman and Ranking Minority Member - Congressional Committees and Subcommittees
(Cont.)

House Subcommittee on Government Management, Information, and Technology
House Subcommittee on National Security, Veterans Affairs, and International Relations
House Committee on Science
House Subcommittee on Space and Aeronautics

Congressional Member

Honorable Pete Sessions, U.S. House of Representatives




                                              52
                                          NASA Reader Survey


                            Assistant Inspector General for Auditing

                                                Reader Survey

The NASA Office of Inspector General has a continuing interest in improving the
usefulness of our reports. We wish to make our reports responsive to our customers’
interests, consistent with our statutory responsibility. Could you help us by completing our
reader survey? For your convenience, the questionnaire can be completed electronically
through our homepage at http://www.hq.nasa.gov/office/oig/hq/audits.html or can be
mailed to the Assistant Inspector General for Auditing; NASA Headquarters, Code W,
Washington, DC 20546-0001.

Report Title:           X-34 Technology Demonstrator

Report Number:                                         Report Date:

Circle the appropriate rating for the following statements.

                                                      Strongly                                Strongly
                                                       Agree     Agree   Neutral   Disagree   Disagree   N/A
1.   The report was clear, readable, and logically        5        4       3          2           1      N/A
     organized.
2.   The report was concise and to the point.            5         4       3          2          1       N/A

3.   We effectively communicated the audit               5         4       3          2          1       N/A

     objectives, scope, and methodology.
4.   The report contained sufficient information to      5         4       3          2          1       N/A
     support the finding(s) in a balanced and
     objective manner.

Overall, how would you rate the report?

      Excellent                              Fair
      Very Good                              Poor
      Good
If you have any additional comments or wish to elaborate on any of the above responses,
please write them here. Use additional paper if
necessary.
How did you use the report?




How could we improve our report?




How would you identify yourself? (Select one)

       Congressional Staff                      Media
       NASA Employee                            Public Interest
       Private Citizen                          Other:
       Government:            Federal:             State:         Local:


May we contact you about your comments?

Yes: ______                                  No: ______
Name: ____________________________
Telephone: ________________________


Thank you for your cooperation in completing this survey.
Major Contributors to this Report

Karen E. VanSant, Director, Aero-Space Technology Audits

Jim Linville, Auditor-in-Charge

Bill Falter, Auditor

Betty Weber, Operations Research Manager

Patricia Atkinson, Program Assistant

Nancy Cipolla, Report Process Manager
